U.S. Department of                      The Inspector General   Office of Inspector General
Transportation                                                  Washington, DC 20590
Office of the Secretary
of Transportation

June 24, 2009

The Honorable Judd Gregg
Ranking Member
Committee on the Budget
United States Senate
Washington, DC 20510

Dear Senator Gregg:

This report is in response to your May 28, 2009, request that we evaluate the
Department of Transportation’s recent projection of an imminent cash shortfall in the
Highway Account of the Highway Trust Fund (HTF). Such a shortfall, if unaddressed,
would result in delayed or reduced reimbursements to the States for costs incurred
under the Federal-aid Highway Program.

Our specific review objectives were to evaluate (1) the basis for the Department’s
projection of the magnitude and timing of a Highway Account cash shortfall, (2) how
that projection would vary under different assumptions, and (3) the triggers the
Department uses to decide that the risk of insolvency for the Highway Account
requires action by the Administration and Congress.

To conduct this work, we interviewed officials from the Department of
Transportation’s Office of the Secretary and Federal Highway Administration
(FHWA), the Congressional Budget Office, and the American Association of State
Highway and Transportation Officials.          We analyzed financial data, budget
documents, and analyses from the Department regarding the Highway Account as
well as related reports, statutes, and studies. We completed this work in a 4-week
timeframe and ensured the evidence we obtained during this analysis provided a
reasonable basis for our findings and conclusions, which are summarized below. A
more extensive discussion of our findings and conclusions can be found in the
enclosed presentation.

Basis for the Department’s Projected Cash Shortfall
The Department used a reasonable methodology to project the magnitude and timing
of a cash shortfall. However, some of its assumptions were outdated as the


CC-2009-082
                                                                                                                         2

Department did not use actual year-to-date data to adjust total revenue or outlay
estimates. This could yield a margin of error in those projections of up to $1 billion in
magnitude and 2 weeks in timing.

The Department has issued three cash shortfall projections that reflect the different
cash needs to meet anticipated payments for different time periods. These projections
are based on actual data available through June 12, 2009, and the assumptions
reflected in the President’s fiscal year (FY) 2010 Budget, issued May 7, 2009,
including the baseline spending assumptions for FY 2010. The Department projects
the following shortfall amounts will need to be transferred into Highway Account:

     $5.1 billion to pay anticipated bills though the end of FY 2009 and maintain a
      “prudent balance” of $4 billion.

     $7.0 billion to make payments through the week ending December 11, 2009, and
      maintain a $4 billion cash balance.

     $14.6 billion to make payments through the end of FY 2010 and maintain a
      $4 billion cash balance. 1

The Department’s current estimate of the magnitude of the shortfall continues to
reflect the outlay and revenue projections in the President’s FY 2010 Budget. The
Department projects the shortfall will occur (i.e., that State reimbursements will have
to be changed from a weekly to a bi-weekly basis) during the week ending
August 21, 2009. This timing estimate is based on historical trends in the monthly
variation in outlays and historical reimbursement data from the Treasury Department.

The Department revisits its cash shortfall projection weekly. However, while actual
outlays through May 2009 were $216.5 million more than what was projected (a
variance of 0.9 percent), the Department did not adjust its monthly outlay projection
for the remainder of FY 2009 because it considers this difference to be within the
margin of error. Similarly, actual revenues through May 2009 were $287 million less
than what was projected. However, the Department increased its monthly revenue
projection for the remainder of FY 2009 to make up for this under-collection. The
Department did this because it is locked into an assumption that the total revenues
reflected in the President’s Budget will be collected during the fiscal year. As a test
of its projections, the Department and FHWA informally perform “what if” analyses
to gauge the probability that their shortfall estimate is off significantly. The
Department decided based on these analyses that the possible margin of error in its


1
    The Department has presented these estimates colloquially as $5 billion to $7 billion is needed for FY 2009 and another
    $8 billion to $10 billion is needed for FY 2010. The difference between $5 billion and $7 billion is the time period
    covered, not uncertainty by the Department in its estimate. The difference between the $8 billion and $10 billion
    requirement is whether $5 billion or $7 billion is provided in FY 2009.


CC-2009-082
                                                                                     3

projections was not enough to change its basic message about an impending cash
shortfall in the Highway Account.

Sensitivity of the Department’s Cash Shortfall Projections to Assumptions
The cash balance forecasts vary largely due to factors outside the Department’s
control. While the accuracy of the Department’s projections could be incrementally
improved, the range of defensible values for the factors influencing those projections
makes it difficult to estimate precisely either the magnitude or timing of the cash
shortfall. As such, the Department could take steps to better manage expectations of
its ability to manage the Highway Account’s cash balance within precise limits and
timeframes. It could also improve transparency regarding how Highway Account
revenues vary according to different assumptions to help facilitate independent
judgments of the accuracy of these projections in light of changing economic
circumstances.

We requested, but were unable to obtain in the short timeframe available to us, a
detailed sensitivity analysis of the key assumptions underlying Treasury’s revenue
estimating models for HTF receipts. However, Treasury indicated that the two key
drivers of revenues for the Highway Account are real gross domestic product
(GDP)—a measure of economic growth—and oil prices. The real GDP assumption
used to project revenues is more optimistic than other private forecasts. In addition,
oil prices through June 8, 2009, are about 20 percent higher than full calendar year
prices projected in April. Together, these factors indicate that revenues are likely to
fall short of the projection used in the Department’s cash shortfall analysis.

The upcoming Mid-Session Review of the President’s Budget will update current
revenue and outlay forecasts, which will impact projected Highway Account cash
flows. The Department expects to receive revised Mid-Session revenue forecasts by
the end of June and plans to use them internally for cash management purposes. The
Mid-Session updates could provide critical information if the timing of their public
release corresponds to congressional consideration of legislation to address the
FY 2009 and FY 2010 Highway Account cash shortfalls.

The Department’s Triggers and Communication Strategy
The Department relies on cash balance forecasts to trigger formal notification to
Congress and the States of a potential insolvency in the Highway Account. While the
Department greatly increased the amount of data publicly available regarding the
balance of the Highway Account, until recently it has lacked a consistent and easily
understood message regarding the timing and magnitude of a cash shortfall. The
Department could improve the current trigger by providing a simple, public
interpretation of the data and projections on a more regular basis.



CC-2009-082
                                                                                       4

The Department has triggers for both a communications and a cash management
strategy that are keyed off of a $1 billion cash balance, as follows:

  The Department plans to formally notify Congress and the States when it projects
   to be approximately 8 weeks away from reaching a $1 billion cash balance in the
   Highway Account (this is sometimes referred to as a $4 billion trigger because at
   this point in the fiscal year it would take about 8 weeks to spend down the cash
   balance from $4 billion to $1 billion).

  The Department would shift from daily to weekly reimbursements to the States
   1 week prior to reaching a $1 billion cash balance and from weekly to bi-weekly
   reimbursements once a $1 billion cash balance is reached.

Since its May 20, 2009, announcement, the Department has provided extensive
congressional briefings on this topic, which have recently included forecasts of the
Highway Account cash balance for each week through the end of FY 2010. Earlier in
the process, however, the Department was less clear in its message regarding a cash
shortfall. For example, the cash balance forecast informally released in November
2008 and the presentation in the FY 2010 President’s Budget issued in May 2009
required a technical understanding of the Highway Account. Neither document
included an explicit statement of an impending cash shortfall. Similarly, the year-to-
date financial data made public on the FHWA website clearly show a downward trend
in the cash balance, but no explicit interpretation is provided with the data regarding
the implications for the magnitude or timing of a cash shortfall.

Concluding Observations
The Highway Account will have insufficient cash to pay all anticipated FY 2009 bills.
The magnitude of the shortfall could be up to $1 billion more than the Department’s
$5.1 billion FY 2009 cash shortfall estimate, and the timing of the shortfall could be
accelerated from the Department’s projection by up to 2 weeks. In addition, the
Highway Account faces an ongoing cash flow problem created by an imbalance
between revenues and outlays. Transferring the minimum projected cash requirement
into the Highway Account for FY 2009 will result in a new cash shortfall early in
FY 2010.

Further, the Department’s cash management responsibility for the Highway Account
is at times not well served by its reliance on official revenue projections that are only
updated twice a year. The accuracy of the Department’s cash balance projections
could be incrementally refined if explicit adjustments to these official revenue
forecasts were made based on actual year-to-date data throughout the year.

Finally, even with these incremental improvements, there is a mismatch between the
inherent difficulty in projecting revenue and outlays on a monthly basis and the


CC-2009-082
                                                                                   5

expectation for precision in these projections. The Department needs to consider
managing expectations regarding the degree of precision possible in its projections.

We provided Department officials with a draft of this report and made technical
adjustments where appropriate in response to their comments. We appreciate the
cooperation of the Department during this review. If I can answer any questions or be
of further assistance in this matter, please contact me at (202) 366-1959 or David
Tornquist, Assistant Inspector General for Amtrak, High Speed Rail, and Economic
Analysis, at (202) 366-1981.


Sincerely,




Calvin L. Scovel III
Inspector General


Enclosure




CC-2009-082
                                                            Enclosure
                                                          Page 1 of 35




              Highway Trust Fund Solvency
                     Department of Transportation
                      Office of Inspector General
                    Requested by Senator Judd Gregg
                Ranking Member, Senate Budget Committee




                              June 24, 2009

CC-2009-082
                                                        Enclosure
                                                      Page 2 of 35

Table of Contents
   Congressional Request                                  4

   Scope and Methodology                                  5

   Summary of Findings                                    6

   HTF Background                                         8

   Basis of Department’s Cash Shortfall Projection        12

   Sensitivity of Projections to Key Assumptions          18

   Triggers and Communication Strategy                    28

   Conclusion                                             34

CC-2009-082
                                                              Enclosure
                                                            Page 3 of 35

Issue
    On May 20, 2009, the Department informally notified key
     congressional staff that the Highway Account of the
     Highway Trust Fund (HTF) would have insufficient cash to
     continue regular reimbursements to the States for highway
     expenditures in mid-August.

    Absent congressional action to increase deposits into the
     Highway Account, reimbursements to the States will be
     delayed and reduced.




CC-2009-082
                                                                      Enclosure
                                                                    Page 4 of 35

Request Details
    Senator Judd Gregg, Ranking Member of the Senate Budget
     Committee, has requested that the Office of Inspector
     General (OIG) evaluate:
         The basis for the Department’s projection of the magnitude
          and timing of a Highway Account cash shortfall;

         How that projection would vary under different assumptions;
          and,

         The triggers the Department uses to decide that the risk of
          insolvency for the Highway Account requires action by the
          Administration and Congress.




CC-2009-082
                                                                Enclosure
                                                              Page 5 of 35

Scope and Methodology
    To conduct this work, we interviewed officials from the
     Department of Transportation’s Office of the Secretary and
     Federal Highway Administration, the Congressional Budget
     Office, and the American Association of State Highway and
     Transportation Officials.
    We analyzed financial data, budget documents, and
     analyses from the Department regarding the Highway
     Account as well as related reports, statutes, and studies.
    We completed this work in a 4-week timeframe and
     ensured that the evidence we obtained provided a
     reasonable basis for our findings and conclusions.
    We requested, but were unable to obtain in the short
     timeframe available to us, a detailed sensitivity analysis of
     the key assumptions underlying Treasury’s revenue
     estimating models for HTF receipts.

CC-2009-082
                                                                    Enclosure
                                                                  Page 6 of 35

Summary of Findings
    The Department used a reasonable methodology to project the
     magnitude and timing of a cash shortfall. However, some of its
     assumptions were outdated as the Department did not use actual
     year-to-date data to adjust total revenue or outlay estimates.
     This could yield a margin of error in those projections of up to
     $1 billion in magnitude and 2 weeks in timing.
    The cash balance forecasts vary largely due to factors outside the
     Department’s control. While the accuracy of the Department’s
     projections could be incrementally improved, the range of
     defensible values for the factors influencing those projections
     makes it difficult to estimate precisely either the magnitude or
     timing of the cash shortfall.
    The Department could also improve transparency regarding how
     Highway Account revenues vary according to different
     assumptions to help facilitate independent judgments of the
     accuracy of these projections in light of changing economic
     circumstances.
CC-2009-082
                                                                     Enclosure
                                                                   Page 7 of 35

Summary of Findings
    The Department relies on cash balance forecasts to trigger formal
     notification to Congress and the States of a potential insolvency in
     the Highway Account. While the Department greatly increased the
     amount of data publicly available regarding the balance of the
     Highway Account, until recently it has lacked a consistent and
     easily understood message regarding the timing and magnitude of
     a cash shortfall.




CC-2009-082
                                                              Enclosure

HTF Background:                                             Page 8 of 35


History of the Highway Trust Fund
    The HTF was created by the Highway Revenue Act of 1956
     to account for highway-user tax receipts that are collected
     by the Federal Government.
    These receipts support state highway infrastructure, safety
     projects, and mass transit.
    The HTF consists of a Highway Account, administered by
     the Federal Highway Administration (FHWA), and a Mass
     Transit Account administered by the Federal Transit
     Administration (FTA).




CC-2009-082
                                                                         Enclosure

HTF Background:                                                        Page 9 of 35


HTF Receipts and Disbursements
    Receipts into the HTF are derived from two main sources:
         Federal excise taxes on motor fuels, i.e., gasoline and diesel
          fuel (accounts for roughly 88% of total receipts from fiscal
          year [FY] 2005 to FY 2008)
         Truck-related taxes, i.e., taxes on truck and trailer sales, truck
          tires, and use of heavy-vehicles (accounts for roughly 8% of
          total receipts over the same period)
    Most receipts from motor fuel taxes (roughly 84% of
     gasoline and 88% of diesel) are deposited in the Highway
     Account, with the remainder deposited in the Mass Transit
     Account. All truck-related taxes are allocated to the
     Highway Account.




CC-2009-082
                                                                                                            Enclosure

HTF Background:                                                                                         Page 10 of 35


HTF Receipts and Disbursements
    Disbursements (or outlays) from the Highway Account flow
     from spending levels (contract authority) that are specified
     in multi-year authorization acts (the most recent being
     SAFETEA-LU1) and are subject to obligation limitations
     contained in annual appropriation acts.
    FHWA distributes the Federal-aid Highway Program
     obligation limits among the States based on a multi-step
     process specified in law.
    Disbursements occur when FHWA reimburses the States
     based on vouchers submitted for work completed. As a
     result, the States largely determine the pace of
     disbursements from the Highway Account.


    1   The Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users or SAFETEA-LU was
        signed into law on August 10, 2005, and is due to expire at the end of FY 2009.
CC-2009-082
                                                                                                                Enclosure

HTF Background:                                                                                             Page 11 of 35


SAFETEA-LU’s Role in the Cash Shortfall
    The Highway Account balance increased steadily through the late
     1990s, reaching a peak of $23 billion in FY 2000.
                                                Figure 1. Comparison of Projected Cash Balance
    However, starting with                         per SAFETEA-LU to Actual ($ in Billions)
     TEA-21,2 outlays                              $20

     outpaced receipts and
                                                   $15
     led to an erosion in the                               $11.0       $11.0
                                                                                               $10.0

     cash surplus.
                                                                                   $8.8
                                                   $10
                                                           $10.6
                                                                        $9.0       $8.1         $4.4

    SAFETEA-LU increased                           $5
                                                                                                             $0.9
     contract authority over                        $0

     TEA-21 with the                               ($5)
                                                                                                          ($0.9)


     intention of spending                                FY 2005    FY 2006     FY 2007      FY 2008     FY 2009
                                                                          SAFETEA-LU                 Actual
     down the cash surplus                                            Projected in the President's 2010 Budget

     over its authorization                    Note: SAFETEA-LU Projections per CBO’s Estimate (April 2006)

     period.                                   Note: FY 2008 actual and FY 2009 projected ending balances reflect the
                                                     $8 billion transfer in September 2008 from the General Fund not
                                                     anticipated by SAFETEA-LU.

     2   The Transportation Equity Act for the 21st Century or TEA-21 was signed into law on June 9, 1998, and was
         the authorization act that preceded SAFETEA-LU.


CC-2009-082
                                                                                                    Enclosure

Basis of Department’s Projections:                                                              Page 12 of 35


FY 2008 Cash Shortfall
    The combined effect of higher    Figure 2. Comparison of Projected Revenues
     fuel prices and the lagging        per SAFETEA-LU to Actual ($ in Billions)
     economy driving down vehicle      $40
     miles traveled caused the
                                                                                                      $37.9
                                       $38                                            $36.9
                                                                         $35.9
     Highway Account balance to        $36                  $34.9

     decline more than anticipated     $34
                                                $33.3
                                                                         $34.3
     over the authorization period.    $32      $32.9
                                                            $33.6
                                                                                                        $31.3
    The Department provided a         $30                                           $31.3


     3-week notice to the States       $28
                                              FY 2005      FY 2006      FY 2007      FY 2008         FY 2009
     that it intended to move to                              SAFETEA-LU                 Actual
     weekly, and possibly pro-                            Projected in the President's 2010 Budget

     rated, reimbursements.           Note: SAFETEA-LU Projections per CBO’s Estimate (April 2006)
                                      Note: Actual revenues do not reflect the impact of $8 billion General
    In early September, Congress          Fund transfer during FY 2008.
     transferred $8 billion from the
     General Fund to the Highway Account, temporarily alleviating the problem.
     The $8 billion amount reflected estimates of funds previously transferred out
     of the Highway Account and did not reflect an assessment of the resources
     needed to avoid another shortfall in FY 2009.
    The Department internally recognized at the start of FY 2009 that the
     Highway Account remained at risk of another shortfall.

CC-2009-082
                                                                        Enclosure

Basis of Department’s Projections:                                  Page 13 of 35


Estimate of Cash Shortfall
    The Department has issued three estimates of the potential
     cash shortfall, each covering a different time period:
             $5.1 billion to get through FY 2009
             $7 billion to get through the beginning of December 2009
             $15 billion to get through the end of FY 2010
    While the Department has recently recommended an
     18-month extension of the current reauthorization that will
     replenish the HTF, it has not released details, including
     amounts.




CC-2009-082
                                                                                                                  Enclosure

Basis of Department’s Projections:                                                                            Page 14 of 35


FY 2009 Cash Shortfall
    Based on actual data through June 12, 2009, the Department is
     projecting that the Highway Account will experience a $5.1 billion
     cash shortfall during FY 2009.
                     Table 1. Department’s Proposal for FY 2009 Highway
                             Account Cash Shortfall ($ in Billions)
              FY 2009 Ending Cash Balancea                                                      $0.9
              Less: Projected October 2009 Treasury Reimbursementb                              $2.0
              Projected Fiscal Year End 2009 Actual Cash Available                             ($1.1)
              Add: Minimum Cash Requirementc                                                    $4.0
              Estimate of Cash Shortfall                                                        $5.1
              a   Ending cash balance per the President’s FY 2010 Budget.
              b   The final cash deposit from Treasury of FY 2009 revenues, which occurs in October, is
                  included in the Highway Account’s year-end balance for accounting purposes. The funds are
                  not available for disbursement during the current fiscal year.
              c   The $4.0 billion minimum cash requirement approximates a peak month cash outlay from
                  the Highway Account. DOT has determined this to be the prudent minimum balance.

    The Department currently projects it would need to move from daily
     to weekly payments during the week ending August 14, bi-weekly
     payments during the week ending August 21, and prorated
     payments during the week ending September 4.

CC-2009-082
                                                                                                               Enclosure

Basis of Department’s Projections:                                                                         Page 15 of 35


FY 2010 Cash Shortfall
    The Department is projecting that the Highway Account will
     experience an additional $9.6 billion cash shortfall during FY 2010.
                     Table 2. Department’s Proposal for FY 2010 Highway
                             Account Cash Shortfall ($ in Billions)
              Beginning Balancea                                                                   $4.0
              Add: Projected FY 2010 Receipts                                                     $32.6
              Less: Projected FY 2010 Outlaysb                                                    $42.2
              Projected Fiscal Year End 2010 Actual Cash Available                                ($5.6)
              Add: Minimum Cash Requirement                                                        $4.0
              Estimate of Cash Shortfall                                                          $9.6
              a   Assumes a $5.1 billion General Fund Transfer in FY 2009.
              b   Assumes an obligation limit of $41.1 billion per the President’s 2010 Budget.

    The timing of any FY 2010 cash shortfall will depend on the
     amount of funds provided to address the FY 2009 cash crisis as
     well as economic and fuel price trends and FY 2010 spending
     levels.
         A $5.1 billion inflow suggests an immediate cash crisis at the beginning of
          FY 2010.
         A $7 billion inflow will provide a slight cash cushion to the Highway Account
          and delay the cash crisis to the beginning of December.
CC-2009-082
                                                                 Enclosure

Basis of Department’s Projections:                           Page 16 of 35


Basis for Department’s Shortfall Estimate
    The Department’s estimate of the magnitude and timing of
     the cash shortfall reflects Treasury’s estimate of receipts
     into the Highway Account. These receipt estimates were
     calculated in conjunction with the preparation of the
     President’s FY 2010 Budget.
    The cash shortfall estimate also reflects the Department’s
     estimate of outlays from the Highway Account
    As discussed in the following section, the cash shortfall and
     the revenue and outlay estimates depend upon key
     assumptions that may vary with changing economic
     conditions.




CC-2009-082
                                                                                 Enclosure

Basis of Department’s Projections:                                           Page 17 of 35


Basis for Department’s Shortfall Estimate
    The Department performs a weekly analysis of the Highway
     Account’s cash flows to project the timing of the shortfall.
         In this analysis, outlay projections are reviewed in light of
          actual year-to-date data. However, to date, the Department
          has not altered its projected outlays for the remainder of FY
          2009 because they are considered to be within the margin of
          error.
         The Department’s weekly analysis does not align its estimate
          of receipts for the remainder of FY 2009 with actual data.
                 The Department continues to use the most current estimates
                  provided by Treasury, i.e., from the President’s FY 2010 budget
                  released in May.
                 As a result, the projections for the remainder of FY 2009 do not
                  consider the impact of the reduced year-to-date receipts. Instead,
                  receipts for the remainder of the fiscal year are adjusted upward
                  (altered in the wrong direction) to meet the original projection.

CC-2009-082
                                                              Enclosure

Sensitivity of Projections to Key Assumptions:            Page 18 of 35


Basis for Revenue Projections
    The Treasury Department’s Office of Tax Analysis (OTA)
     forecasts tax receipts for the Highway Account.
    The highway-related excise taxes are estimated using the
     Administration’s economic forecast, a wide range of
     economic models, and recent data on tax collections and
     reported tax liabilities.
    OTA uses five separate models for each of the five
     dedicated Highway Account excise tax sources:
         Gasoline and related fuels
         Diesel and other fuels
         Truck and trailer sales
         Truck tires
         Heavy vehicle usage
    These models estimate the historic relationship between
     key macroeconomic variables and excise tax collections.

CC-2009-082
                                                                Enclosure

Sensitivity of Projections to Key Assumptions:              Page 19 of 35


Basis for Revenue Projections
    The two key macroeconomic drivers for projecting revenues
     into the Highway Account are real gross domestic product
     (GDP)—a measure for economic growth—and oil prices.
    The revenue projections related to the Highway Account are
     updated twice a year in the President’s Budget and the Mid-
     Session Review.
    Transfers into the Highway Account from the Treasury
     Department are based on the Administration’s most current
     revenue projection (i.e., the President’s Budget or Mid-
     Session Review estimates) because actual excise tax receipt
     amounts are not immediately available.
    Once a quarter, the Treasury Department reconciles the
     payments made into the Highway Account to actual excise
     tax receipts. This process, referred to as a “true-up,” can
     increase or decrease the cash in the Highway Account and
     typically occurs 5 months after the end of a quarter.
CC-2009-082
                                                                      Enclosure

Sensitivity of Projections to Key Assumptions:                    Page 20 of 35


Basis for Revenue Projections
    High gas prices and the downturn in the economy resulted in
     significant negative true-ups to the Highway Account during
     FY 2008 and year-to-date FY 2009:
         The FY 2008 true-ups ranged from negative $46 million to
          negative $783 million.
         Two true-ups to date in FY 2009 – negative $149 million in
          February and negative $139 million in May.
         As a result, cash available to the Highway Account through
          May 2009 was $288 million less than projected.




CC-2009-082
                                                                                Enclosure

Sensitivity of Projections to Key Assumptions:                              Page 21 of 35


Sensitivity of Revenue Projections
    The real GDP growth assumption used to project the revenues for
     the Highway Account in the President’s FY 2010 budget is more
     optimistic than comparable estimates.
                         Table 3. Comparison of GDP Estimates
                                              CY 2009        4th Quarter CY 2009
     Source of GDP Estimate                   Real GDP            Real GDP
     President’s FY 2010 Budget (May 2009)      -1.2 %             0.3 %

     CBO (March 2009)                           -3.0 %             -1.5 %
     Blue Chip Consensus (April 2009)           -2.6 %             -1.3 %
     Macro Economic Advisors (May 2009)      Not Available         -1.7 %

    Higher real GDP translates into higher revenues for the Highway
     Account.
    Actual receipts into the Highway Account for the remainder of
     FY 2009 and FY 2010 may be less than the amounts the
     Department incorporates into its shortfall estimate.


CC-2009-082
                                                                              Enclosure

Sensitivity of Projections to Key Assumptions:                            Page 22 of 35


Sensitivity of Revenue Projections

          Table 4. Comparison of Energy Information Administration’s (EIA)
                     Estimates to Actual Energy Commodity Prices
                                EIA Estimate CY 2009     Actual CY 2009
          Energy Commodity          (April 2009)          (Thru June 8)
          Light Crude Oil
                                        $40.52               $48.28
          (price per barrel)
          Motor Gasoline
                                         $1.90                $2.10
          (price per gallon)



    Higher gasoline prices translate into lower revenues for the Highway
     Account.
    The energy price projections used in the Administration’s HTF model
     are not publicly available.
    However, the EIA projections are significantly lower than the actual
     year-to-date figures. This coupled with the recent rise in oil prices
     suggests that actual Highway Account revenues may underperform
     projections.

CC-2009-082
                                                                                                                                             Enclosure

Sensitivity of Projections to Key Assumptions:                                                                                           Page 23 of 35


Sensitivity of Cash Shortfall Projections to Changes in Revenue
                                                   Figure 3. Sensitivity of the Magnitude of
   Figure 3 shows the range of                   FY 2009 Cash Shortfall to August True-Up
    impact the August true-up                              $1,000
    will have on the                                                                                                                            $901

    Department’s shortfall
                                                            $800




                                           (In Millions)
                                                                                                                                         $826
                                                                                                                                  $751

    estimate.                                               $600
                                                                                                                    $601
                                                                                                                           $676



    The size of the true-up could
                                                                                                             $526
                                      $400                                                           $451


    accelerate the timing of
                                                                                               $376
                                                                                        $300
                                       $200
    when FHWA has to move to
                                                                                 $225
                                                                          $150
                                                                    $75

    a bi-weekly payment                  $0
                                              1% 2% 3% 4% 5% 6% 7% 8% 9% 10% 11%                                                                12%
    schedule (i.e., when the                          True-Up as % of Q2 FY 2009 Revenues
    cash balance of the Highway    Note: Highway Account had gross receipts totaling
    Account dips below                    $7.51 billion during Q2 FY 2009.
    $1.0 billion) by up to
    1 week. The August true-up is scheduled for August 18.
   The true-up will affect the magnitude of the projected cash shortfall and
    consequently the cash available for disbursement to the States.
   Recent revenue true-ups have ranged between (1.4)% in February 2009
    (compared to Q4 FY 2008 projections) and as high as (11.3)% in May 2008
    (compared to Q1 FY 2008 projections). The most recent revenue true-up in
    May 2009 was (2.3)% compared to Q1 FY 2009 projections.
CC-2009-082
                                                                    Enclosure

Sensitivity of Projections to Key Assumptions:                  Page 24 of 35


Basis for Outlay Projections
    The annual outlays for Highway Account-funded programs
     are projected on the basis of historical spending patterns
     for these programs. For example, Federal-aid Highway
     Program projects are projected to outlay over 8 years with
     27% of funds outlayed in year 1.
    The annual outlays are broken down into monthly outlays
     that factor in seasonality (outlays are typically higher for
     the summer and fall months) and the timing of state
     reimbursement requests.
    FHWA revalidated the Federal-aid outlay rates last fall.
    In FY 2007 and FY 2008, outlay projections have exceeded
     actual outlays by an annual average of 1.9%. In FY 2009
     through May, actual outlays have exceeded projections by
     0.9%, or $217 million.


CC-2009-082
                                                                                                                         Enclosure

Sensitivity of Projections to Key Assumptions:                                                                       Page 25 of 35


Variability of Monthly Outlay Projections
    The monthly outlay projections used to determine the timing of the cash
     shortfall have at times been significantly off.
       For example, actual outlays were
        19% lower than projected for March            Figure 4. Sensitivity of the Magnitude
        2009 whereas December 2008                   and Timing of FY 2009 Cash Shortfall to
        outlays were 11% higher.                               Increase in Outlays

       Monthly variations in outlays are                       $1,400
        caused by the unpredictability                          $1,200
        associated with the timing of the                                                                                    $1,229




                                                (In Millions)
                                                                $1,000
        States’ reimbursement requests.                          $800
                                                                                                                    $1,054
                                                                                                            $878
       Anything greater than a 2.6%                             $600                              $702
        variance from projected outlays will                     $400                      $527

        affect the timing of $1.0 billion                        $200             $351

        breach.                                                    $0
                                                                         $176

                                                                          1%       2%      3%      4%       5%      6%        7%
       The size of the variance could affect                    % Increase in Actual Outlays vs. Projections (Jun-Sep ‘09)
        the magnitude of the projected cash                        Timing of $1 Billion Breach
        shortfall and consequently the cash                              Week of August 21st (Same as Department's estimate)
                                                                         Week of August 14th (1 week prior to Department's estimate)
        available for disbursement to the                                Week of August 7th (2 weeks prior to Department's estimate)
        States.
                                                   Note: The Department is projecting outlays of
       Figure 4 shows the range of impact               $17.6 billion between June and September 2009.
        that underestimated outlays will
        have on the Department’s shortfall estimate.

CC-2009-082
                                                                          Enclosure

Sensitivity of Projections to Key Assumptions:                        Page 26 of 35


Reasonableness of Shortfall Projections
    The Department uses stale revenue projections (currently,
     from the President’s budget) in estimating the magnitude
     and timing of the cash shortfall.
         The Department does not consider the impact of either the prior
          negative true-ups or the impact of current energy prices and
          economic trends.
         To the extent that actual revenues differ from Treasury’s
          projections, that difference is added (or subtracted) to occur
          later in the fiscal year so that total fiscal year revenues remain
          the same.

    The Department expects to receive the Mid-Session Review
     updates by the end of June and will adjust its analysis for
     internal cash management purposes accordingly at that
     point.


CC-2009-082
                                                                       Enclosure

Sensitivity of Projections to Key Assumptions:                     Page 27 of 35


Reasonableness of Shortfall Projections
    A combination of the following factors could yield a margin
     of error in the Department’s shortfall projections of up to
     $1 billion in magnitude and 2 weeks in timing:
         Downward revisions to projected receipts in the Mid-Session
          Review
         A significantly large negative August true-up
         Variance of weekly outlays from projection (due to timing of
          the States’ reimbursement requests)

    Another factor that could affect the magnitude and timing
     of cash shortfall is the States’ authority to seek higher
     advance construction reimbursements. While we have seen
     no evidence of a “run on the bank,” in the event that one
     does occur, outlay projections could be underestimated.


CC-2009-082
                                                                                                  Enclosure

Triggers and Communication Strategy:                                                          Page 28 of 35


Lessons Learned from FY 2008 Shortfall
    In FY 2008, the Department provided only 3 weeks notice prior to the
     impending cash shortfall.
    Recognizing the need to communicate with stakeholders in a more
     timely manner, DOT developed a variety of triggers based on the
     Highway Account’s cash balance and posts monthly cash balance data
     on the FHWA website to ensure that the most current trend
     information is available.
    While the Department agreed with Government Accountability Office’s
     February 2009 recommendation3 that improving mechanisms to
     monitor Highway Accounts balance was critical, it concluded that
     given the minimal balance in the Highway Account, monitoring the
     cash balance was the best vehicle to anticipate the timing of any
     insolvency.
    The Department now monitors cash on a weekly basis to predict the
     exact timing of the shortfall. The Department performs informal “what
     if” analyses to gauge the probability that their shortfall estimate is off
     significantly.
     3   Source: GAO-09-316 – Highway Trust Fund, Improved Solvency Mechanisms and Communication Needed
         to Help Avoid Shortfall in the Highway Account issued in February 2009.

CC-2009-082
                                                            Enclosure

Triggers and Communication Strategy:                    Page 29 of 35


Cash Monitoring and Management Triggers
    8 weeks prior to $1 billion cash balance – DOT notifies
     both Congress and the States.


    1 month prior to $1 billion cash balance – DOT moves
     to daily cash monitoring.


    1 week prior to $1 billion cash balance – Payments to
     the States reduced from daily to weekly reimbursements.


    Cash balance dips below $1 billion - Payments to the
     States reduced from weekly to bi-weekly reimbursements.




CC-2009-082
                                                                  Enclosure

Triggers and Communication Strategy:                          Page 30 of 35


Cash Monitoring and Management Triggers
    The initial indication of a potential future insolvency was
     determined at the start of FY 2009; as a result, the
     Department has been monitoring the cash balance on a
     weekly basis.
    The Department moved from twice daily to daily
     reimbursements leading into last year’s insolvency and
     continues to operate as such.
    The States will be reimbursed on a pro rata basis once
     there is insufficient cash on hand to make full payments.
    Finally, the Department will suspend all cash payments
     until new receipts come in when the cash balance
     approaches the minimum working capital requirement for
     items such as payroll, essential vendor payments, etc.


CC-2009-082
                                                                     Enclosure

Triggers and Communication Strategy:                             Page 31 of 35


Reasonableness of Triggers and Communication
    Utilizing the cash balance as the basis of any triggers and
     monitoring the actual cash flows as opposed to some other
     metric is the appropriate mechanism to determine the
     timing of any shortfall at this late juncture.
     However, consideration of current trends in the economy
     and fuel prices is critical to accurately project the
     magnitude and timing of the August true-up.
    Earlier communication of the solvency of the Highway
     Account is needed.
         The Department was aware of the likelihood of a 2009 cash
          shortfall even after the FY 2008 $8 billion infusion.
         Even though people “in the know” were not surprised by the
          news of a 2009 shortfall, there was a lack of explicit
          statements about the potential shortfall until late May.

CC-2009-082
                                                                         Enclosure

Triggers and Communication Strategy:                                 Page 32 of 35


Reasonableness of Triggers and Communication
    The Department released a Highway Account projection to
     congressional staff in November 2008 that indicated the
     Highway Account would end the year with $2.7 billion
     balance.
    The President’s 2010 budget released May 7 projected the
     Highway Account to end the year with a $940 million
     balance.
    Both of these fiscal year end estimates reflected the
     $2 billion cash receipt, which is not received until October.
         As a result, the President’s budget implicitly projected a
          shortfall in FY 2009. However, it did not explicitly state that a
          bailout of the Highway Account would be required in FY 2009.
         As such, the actual “cash” as opposed to “accounting” balance
          at FY end was projected to be NEGATIVE $1.1 billion.



CC-2009-082
                                                                 Enclosure

Triggers and Communication Strategy:                         Page 33 of 35


Reasonableness of Triggers and Communication
    While the Department greatly increased the amount of data
     publicly available regarding the balance of the Highway
     Account, until recently, it has lacked a consistent and easily
     understood message regarding the timing and magnitude of
     a cash shortfall.
    The Department could improve the understanding of the
     HTF balance by providing a simple, public interpretation of
     the data and projections on a more regular basis.




CC-2009-082
                                                                     Enclosure
                                                                 Page 34 of 35

Conclusion
    The Highway Account will have insufficient cash to pay all
     anticipated FY 2009 bills. The magnitude of the shortfall could be
     up to $1 billion more than the Department’s $5.1 billion FY 2009
     cash shortfall estimate, and the timing of the shortfall could be
     accelerated from the Department’s projection by up to 2 weeks.
    Transferring the minimum projected cash requirement into the
     Highway Account for FY 2009 will result in a new cash shortfall
     early in FY 2010.
    The Department’s cash management responsibility for the
     Highway Account is at times not well served by its reliance on
     official revenue projections that are only updated twice a year.
     The Department could incrementally refine the accuracy of its
     cash balance projections by making explicit adjustments to these
     official revenue forecasts based on actual year-to-date data
     throughout the year.


CC-2009-082
                                                                     Enclosure
                                                                 Page 35 of 35

Conclusion
    Even with these incremental improvements, there is a mismatch
     between the inherent difficulty in projecting revenue and outlays
     on a monthly basis and the expectation for precision in these
     projections. The Department needs to consider managing
     expectations regarding the degree of precision possible in its
     projections.




CC-2009-082
